<html>
<title> - TO EVALUATE OPPORTUNITIES FOR THE UNITED STATES TO BUILD ON ITS STATUS AS AN ARCTIC NATION FOR THE BETTERMENT OF THE NATION AND THOSE WHO LIVE IN THE ARCTIC</title>
<body><pre>[Senate Hearing 114-15]
[From the U.S. Government Publishing Office]







                                                         S. Hrg. 114-15

                       U.S. ARCTIC OPPORTUNITIES

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   TO

EVALUATE OPPORTUNITIES FOR THE UNITED STATES TO BUILD ON ITS STATUS AS 
AN ARCTIC NATION FOR THE BETTERMENT OF THE NATION AND THOSE WHO LIVE IN 
                               THE ARCTIC

                               __________

                             MARCH 5, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Printed for the use of the Committee on Energy and Natural Resources
                                      ______
  
                           U.S. GOVERNMENT PUBLISHING OFFICE 
  
  94-048                         WASHINGTON : 2015 
  -----------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government Publishing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                            Washington, DC 20402-0001
                          









  
  
  
  
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, Jr., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
                     Isaac Edwards, Senior Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
     Tara Billingsley, Democratic Senior Professional Staff Member


























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     4

                               WITNESSES

Papp, Jr., Admiral Robert J., Special Representative for the 
  Arctic, U.S. Department of State...............................     9
Herron, Hon. Bob, Representative, Alaska State Legislature.......    23
McGuire, Hon. Lesil, Senator, Alaska State Legislature...........    24
Brower, Hon. Charlotte, Mayor, North Slope Borough...............   133
Bitz, Dr. Cecilia, College of the Environment, School of 
  Atmosphere, University of Washington...........................   141
Arnold, Patrick R., Director of Operations & Business 
  Development, Maine Port Authority..............................   160

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alaska Native Women
    Statement for the Record.....................................   203
Arnold, Patrick R.
    Opening Statement............................................   160
    Written Testimony............................................   162
Bitz, Dr. Cecilia
    Opening Statement............................................   141
    Written Testimony............................................   143
    Responses to Questions for the Record........................   193
Brower, Hon. Charlotte
    Opening Statement............................................   133
    Written Testimony............................................   136
Cantwell, Hon. Maria
    Opening Statement............................................     4
Center for American Progress
    Statement for the Record.....................................   207
Herron, Hon. Bob
    Opening Statement............................................    23
    Written Testimony............................................    27
King, Jr., Hon. Angus S.
    Chart: Least Sea Ice Extent..................................   179
Murkowski, Hon. Lisa
    Opening Statement............................................     1
McGuire, Hon. Lesil
    Opening Statement............................................    24
    Written Testimony............................................    27
Papp, Jr., Admiral Robert J.
    Opening Statement............................................     9
    Written Testimony............................................    12
    Responses to Questions for the Record........................   184

 
TO EVALUATE OPPORTUNITIES FOR THE UNITED STATES TO BUILD ON ITS STATUS 
AS AN ARCTIC NATION FOR THE BETTERMENT OF THE NATION AND THOSE WHO LIVE 
                             IN THE ARCTIC

                              ----------                              


                        THURSDAY, MARCH 5, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We will convene this morning's 
hearing on the Arctic.
    It is, I think, appropriate that the first ever Arctic 
hearing scheduled in a full Senate Committee is held on a day 
that has Washington gripped with anxiety. [Laughter.]
    In anticipation of weather. If there's one thing the Arctic 
knows, it's weather. The people of the Arctic, their lives 
depend on knowing what will happen with the weather. Being able 
to predict whether it is safe to go out on the ice, 
anticipating winter, anticipating the seasons. There is an 
awareness, I think, of the people of the Arctic about the land 
and their surroundings that perhaps we don't see in most places 
in the United States anymore because the people of the North 
depend on their land.
    I have been asked why it should be the Energy Committee 
that would have a full committee meeting on the Arctic, but 
I've pointed out that so much of America's Arctic land, of 
course within Alaska's sizeable borders, is federal land and 
that's where the nexus is with this Committee.
    That's why I wanted to invite the Committee to take a look 
at what I am describing as the Arctic opportunity that is 
before America and before the world today. It is economic 
opportunity. It is scientific opportunity. It is environmental 
opportunity. National security opportunities, and really 
opportunities for the nation as a whole from, quite literally, 
a ``top of the world'' point of view.
    I had an opportunity yesterday evening to give a speech on 
the Senate Floor, and I had a map of the Arctic and the eight 
Arctic nations and it was commented on by somebody. They said, 
``I didn't recognize it. I didn't know what that was a map 
of.''
    When you look at planet Earth from above, truly, from the 
top of the world, it is a remarkable area. Remarkable in its 
topography. Remarkable in the extent of our oceans.
    Also more remarkable because of what we're seeing take 
place in the Arctic today, a level of movement, a level of 
commerce, a level of engagement that is absolutely 
unprecedented. It's this aspect of the Arctic opportunity that 
gets me excited about what it is that we have to offer as an 
Arctic nation.
    I want to acknowledge a few people who have joined us today 
that have discovered this is, probably, the only hearing going 
on in the Senate this morning. It may be that some of you are 
just lost. [Laughter.] It may be that others of you are here 
with great purpose as we are.
    We have the Ambassador to Iceland, Ambassador Barber, who 
has joined us. Welcome. It's the first time that I have seen 
him since we confirmed him, and we're pleased that he is here.
    We also have Iceland's Ambassador to the U.S. who has 
joined us in the group here this morning.
    We have many Alaskans who have traveled quite far to be 
with us, I think, to support not only those who will be 
testifying this morning, but also a series of other meetings 
that will be going on throughout the Hill today.
    PNWER, the Pacific Northwest Economic Region, is having a 
North American Arctic Leaders Forum this afternoon in the 
Russell Office Building, Room 485, beginning at 12:45. I'd like 
to invite folks to attend if they would so desire. There are 
those meetings going on and again, we've had a good deal of 
focus on the Arctic here in the Senate as well.
    Now I mentioned that we are an Arctic nation because of 
Alaska, but truly every state in this union has a stake in the 
Arctic whether it's from trade with other Arctic nations or 
research activity. The Arctic touches all 50 states and really 
needs to be a national priority.
    When I was on the Floor yesterday it was Senator Gardner 
who was sitting in the chair, and I reminded him that in his 
state of Colorado the percent of total exports from Colorado to 
the Arctic nations is 30 percent of Colorado's exports. 30.5 
percent of Colorado's exports go to Arctic nations. That's from 
Colorado.
    My friend and partner here on the Energy Committee was also 
on the Floor yesterday, and I reminded him that in Wyoming, 
again, the numbers are pretty impressive, Wyoming's Arctic 
exports are 28 percent of Wyoming's total exports.
    I guess I should look up Washington while I'm sitting here 
thumbing through. Washington. We need to up our game here in 
Washington a little bit. 14 percent of Washington's total 
exports go to the Arctic.
    Maine, and I think my colleague from Maine knows this 
because I think it's one of the reasons that he has become so 
engaged in Arctic issues, but in Maine it's 52 percent of 
Maine's total exports that go to the seven other Arctic 
nations. So it was not surprising to me that Maine should have 
a very substantial contingent at the Arctic Circle meeting in 
Reykjavik back in October, and that was good to see.
    Minnesota. You need to know, Senator Franken, that it's 
just about 30 percent for you as well, 29.9 percent and----
    Senator Franken. A lot of that is to Alaska, though. 
[Laughter.]
    The Chairman. We're going to work on our friends and 
neighbors to the south of us.
    In Hawaii it's a little less than four percent, but I think 
what happens with Alaska and Hawaii is we export a lot of our 
Alaskans in this time of year to you for tourism. So I think 
you appreciate, very well, the full benefit coming out of the 
Arctic.
    I mentioned my colleague from Colorado already sitting at 
30 percent, so we welcome him to the Committee as well.
    My point in putting these numbers out here is because I 
think many of us just don't even think about the significance 
of the Arctic from a trade perspective and what that might mean 
to us.
    On April 25th, just a couple months away, the United States 
will assume the Chair of the Arctic Council at the ministerial 
meeting in Iqaluit in the Nunavut territory. I've had the 
opportunity to attend the past two ministerial meetings. One 
was with Secretary Clinton when we traveled to Greenland, and 
then again with Secretary Kerry when we were in Kiruna, Sweden.
    It was impressive in both of those ministerials to see the 
growth in interest in the Arctic by the non-Arctic nations. At 
the last meeting we had six additional non-Arctic nations that 
were added as observers to the Arctic Council bringing the 
number of observer nations to 12 and overall observers to 32. 
So what is happening is this is not just Arctic nations that 
are focusing on the Arctic. It is nations from around the 
world. It is not to be missed that Singapore has had a presence 
at the Arctic Circle meetings and at the Arctic Council 
meetings. It is not to be overlooked that the contingent from 
Great Britain, when we were in Reykjavik at the Arctic Circle 
meeting, was larger than the delegation from the United States. 
Great Britain is hardly an Arctic nation.
    So it causes you to question what is it that they see that 
perhaps we're missing here in Alaska? I shouldn't say it. We're 
not missing it in Alaska. We're missing it in the rest of the 
lower 48 here.
    The Arctic is notable within the international community 
from an economic perspective as our shipping lanes are opening 
up, additional areas become accessible for resource development 
and clearly we see tourism on the rise.
    Our neighbors, Russia to the west and Canada to the east, 
continue with their very determined national plans combined 
with state investment to develop Arctic resources and advance 
commerce in the north. Their plans are working to create jobs 
and economic growth in areas that, I think, we would 
acknowledge face some extraordinary challenges.
    Even non-Arctic nations are embracing the opportunities 
that are coming with diminished polar sea ice. They're reaping 
the transit benefits. They're moving ahead with resource 
exploration and development activities.
    We can debate here in the Congress the pros and cons of 
offshore development in the Arctic, but I am one who believes, 
very strongly, that we can access our resources. But even if 
you suggest that we take that off the table, the reality is 
these activities in the Arctic will continue with or without 
the United States' involvement. The maritime activity is only 
going to increase. What we're seeing happening on the Russian 
side of the Arctic is going to just accelerate. We're seeing it 
in Canada. It is everywhere. It is within the entire Arctic 
except, perhaps, in the U.S. Arctic.
    During our Chairmanship of the Arctic Council I am hopeful 
that the United States will embrace the work of the Arctic 
Economic Council, recognize its formal connection with the 
Arctic Council and support its work in order to help those who 
live in the Arctic to develop their economies and improve their 
qualities of life.
    I think today is a somewhat fitting reminder as we're out 
in the snow and talking about weather, an element. 
Unfortunately I think so many people associate the Arctic with 
just weather. That's all they think about, and it's important 
that we remind them of the people of the Arctic, the people who 
have been there for thousands of years, the 4,000,000 people 
who live in the Arctic.
    So as we have these discussions about the challenges that 
face us, the challenges of climate change and environment, the 
challenges of moving from a time when it was truly a 
subsistence lifestyle to one where commerce is opening up. 
Activities are opening up, and perhaps we lack, not perhaps, 
but we do lack the infrastructure necessary to be a major 
participant.
    We cannot forget about the people of the north, so I'm 
pleased today that we will have those who will address those 
issues as we work together to discuss the Arctic opportunity in 
front of us.
    With that I will turn to my colleague and Ranking Member 
and one who benefits greatly from the activities in the Arctic 
because we all jump off from Washington State in heading 
northward. So with that, I turn to my Ranking Member.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well, thank you, Madam Chairman, and 
thank you for keeping this important and historic hearing on 
the schedule. And thank you to our constituents who are here to 
testify.
    There is a bit of irony that the backdrop of this hearing 
is weather when, in fact, the changes of weather conditions 
demands that the United States come up with an Arctic strategy 
and implement it. So I'm very grateful that your passion and 
leadership prevailed here today.
    I think the Arctic is something we can find significant 
common ground on. The United States Arctic strategy is 
tremendously important to both the economies of Washington and 
Alaska and, as we've heard from many of our colleagues here on 
the Committee, it is critically important to the United States 
of America as well. I think that we will hear that from our 
witnesses today.
    I believe we can agree on the fact that our Coast Guard 
needs the tools and infrastructure required to operate in the 
Arctic which means developing a polar ice breaker fleet.
    We must have strategic investments in Arctic science which 
will help us understand the impacts of climate change on Arctic 
communities but will also better inform our strategies for 
dealing with everything from rescue operations to potential oil 
spills.
    I think we can agree that the United States must ratify the 
Law of the Sea Treaty which clarifies the rights and 
responsibilities of nations on our oceans.
    The Arctic already contributes a great deal to the American 
economy, and we must have a seat at the table. The Chinese and 
the Russians are already aggressive in their resource 
development in the Arctic area, and as our climate continues to 
change, the economic importance of the Arctic will only 
continue to grow in the years ahead.
    This year the United States assumes the rotating Chair of 
the Arctic Council. In this capacity we have a great 
opportunity to draw Arctic nations closer together to address a 
wide range of issues. The U.S. efforts, hopefully, will 
prioritize important efforts in addressing climate change, 
increasing regional cooperation and facilitating new and 
reliable shipping routes.
    On January 21st President Obama issued an executive order 
to improve coordination and implementation of the United States 
Arctic strategy, and this order created the Arctic Executive 
Steering Committee, chaired by the Office of Science and 
Technology Policy at the White House. The Steering Committee 
will help to increase coordination, reduce duplication, and 
address any potential gaps in implementation. In my view, the 
Obama Administration is pursuing an Arctic strategy not just on 
paper, but they have to have significant actions proportional 
to the challenges and opportunities that we face here with the 
Arctic.
    That's why I'm so pleased that Admiral Papp is here today, 
because he fully appreciates the role the Coast Guard plays in 
the Arctic and will play in the future. As we evaluate 
opportunities and challenges that we face in the Arctic, we 
need to make sure the Coast Guard has the adequate resources to 
meet those missions and do so safely.
    Admiral Papp, given your role in signing the Coast Guard 
Arctic Strategy in 2013 when you served as the 24th Commandant, 
you bring a unique viewpoint on these issues. I look forward to 
hearing your perspective this morning on your role as the 
Special Representative for the Arctic.
    While all ice breaking operations in the Arctic have been 
delegated to the Coast Guard, it is clear that we have not yet 
provided these men and women with the resources to meet this 
mission. According to a 2010 study, the Coast Guard determined 
that it either needs three heavy or three medium ice breakers 
to fill its statutory obligations or six heavy and four medium 
ice breakers to both meet its statutory obligations and the 
requirements established under the Naval operations concept. 
Yet today the Coast Guard only has two ice breakers in 
operation, one heavy and one medium, and the medium vessel, the 
Healy, is primarily a research vessel.
    Madam Chair, I know this isn't the Commerce Committee where 
we often discuss these issues, but it is very important as we 
discuss our Arctic strategy that the United States of America 
understands it needs to make an investment in ice breakers. 
These issues of lack of resources are particularly troubling 
when we consider that Russia currently has 29 operating ice 
breakers and is in the process of building eight more. I found 
out this morning even India is building an ice breaker. 
According to a report for the Center of American Progress 
released this morning, ``Without this decisive action to fund 
and build a new heavy ice breaker fleet for the U.S. Coast 
Guard, the United States puts its environmental and national 
security in harm's way.''
    The Coast Guard is already spread too thin, and earlier 
this year the Polar Star broke through ice to deliver supplies 
to the American base in Antarctica. A commercial fishing vessel 
got stuck in ice nearly 900 miles away. The Polar Star launched 
an international rescue mission traveling 860 miles, 150 miles 
required breaking thick ice in the Antarctic ice. When all was 
said and done, our Coast Guard rescued 26 people.
    I'm very proud of our Coast Guard, especially the crew that 
calls Seattle home, and I'm concerned that we only have one 
heavy ice breaker. What if the Polar Star too had been stuck? 
So as the Commandant, Admiral Zukunft, said in his State of the 
Coast Guard address last week, ``There is no one to rescue the 
rescuer.'' We need to provide the Coast Guard with more 
resources, and that means more ice breakers. I'm sure ice 
breakers are one of the topics we'll hear about from a number 
of our witnesses.
    I'm pleased to have Dr. Bitz, from the University of 
Washington, here today to talk about the impacts of climate 
change as we will discuss we're seeing tremendous impacts on 
the Arctic region. And this is something we need to address in 
a comprehensive, regional policy.
    It's also worth noting that last October Defense Secretary 
Hagel referred to climate change as a ``threat multiplier.'' 
These threat impacts include impacts to property from sea level 
rises and erosion, and access to natural resources, including 
our fisheries. Further extreme weather can impact our military 
readiness and continue to stretch already limited resources.
    Warming has serious implications for America's national 
security in the Arctic, and this impact is especially acute 
because climate change is affecting the Arctic region twice as 
fast as the continental United States. Over 5.4 million miles 
of the Arctic Sea melted between March and September 2012 and 
the level of Arctic ice measured in January of 2015 was the 
lowest amount for the month of January in history.
    We've already seen significant ways in which climate change 
is altering the life of the Arctic. Juvenile salmon populations 
have decreased as they have lost access to traditional food 
sources under the Bering Sea coast. I'm sure the Chair could 
name many things that are happening, everything from affecting 
Alaska villages to coastal flooding and erosion to threats to 
homes.
    But it is also important that we note the impacts of 
melting ice in the Arctic also have broad, national economic 
implications. According to a recent report by the Natural 
Resources Defense Council, melting ice in the Arctic will have 
a severe impact on agriculture in the continental United 
States. Kansas, for example, will be four degrees warmer in the 
winter without Arctic ice, which normally generates cold air 
masses that slide southward. Warmer winters are bad for wheat 
farmers who need freezing temperatures to grow wheat. In the 
summer warmer days would rob Kansas soil of 10 percent of its 
moisture for drying out valuable farmland.
    My point to our colleagues is that this affects all of us, 
and the fate of the Arctic ice will have broad economic 
implications in the lower 48.
    I want to talk for a second just about the importance here 
of trade in the economy, because I know we do have guests from 
all over. They've already seen how important the Arctic is for 
this. In the coming years economic activity in the Arctic is 
poised to increase substantially. This will have a dramatic 
downstream impact on Pacific ports like Seattle and Tacoma. The 
economy of my home state and Alaska too is already deeply 
interwoven.
    According to a recent study by the McDowell Group, Alaska-
related jobs in the Puget Sound area increased by nine percent 
in the last ten years. 3.4 million tons of cargo moves between 
our states every year, and an increase in commerce in the 
Arctic will certainly provide new economic opportunities to 
both our states.
    It is also important that we assess how the melting ice in 
the Arctic would have a significant impact on global trade. The 
opening of the Northwest Passage, for example, would reduce the 
amount of time it would take to travel from Korea and the 
Netherlands by ten days compared to the route through the Suez 
Canal. A 2009 report from the Arctic Council estimates that the 
northern sea route would offer an overall estimated savings of 
35 to 60 percent for ships traveling from East Asia to Europe. 
It would also allow ships to circumvent regional conflicts that 
are at risk of piracy, everything from the African Coast or 
Malaysia.
    It is also important that we not lose track of the 
significant challenges this economic opportunity will also 
present. Although melting ice sheets will increase traffic, 
there still will be significant ice cover, severe storms, 
minimal maritime and weather data to assist vessels transiting 
those routes. That is why we all need to work together on a 
strategic plan in the Arctic sciences, tools and 
infrastructure.
    One of the key steps in addressing, I believe, our Arctic 
activities is also in ratifying the Law of the Sea under the 
United Nations convention. I know my colleague knows well this 
issue and all the challenges that we have faced in trying to 
address this here in the United States Senate, but I just want 
to point out that President George W. Bush and President Obama 
and Secretaries of State and Defense have all supported this 
effort including many, many people in the private sector, 
everyone from shippers to fishing businesses. I think it's an 
important issue we need to try to engage our colleagues on.
    So the Arctic is certainly a region of great economic 
importance to our country, and at the same time we must work to 
confront the climate change issues that are posing a threat to 
the region. I look forward to hearing from many of the 
witnesses.
    Again, Madam Chair, I really do want to complement you on 
your perseverance in making sure that we had this historic 
Arctic hearing today.
    The Chairman. Thank you, Senator Cantwell. It will be just 
the first of many, I'm sure.
    Along with Senator King, I have invited each of our 
colleagues to join us as part of the Arctic Caucus. We've got a 
lot of caucuses around here but, I think, it is something that 
we will use as a means of outreach and education and 
collaboration on some of these issues that you have raised in 
your comments.
    I appreciate your comments, particularly about the issue of 
ice breakers and our lack of capacity in that area. While there 
are many things that can be used as a barometer for progress 
that we're making, if you can't move it makes it tough to do 
much of anything. And as a nation we are woefully behind.
    While we do have the Polar Star, the fact of the matter is 
that the Polar Star is on contract for the next five years down 
in Antarctica. When she's not down there, she's going to be 
being patched up because of being banged around in the ice down 
there. So we're not going to see her in our northern waters for 
five years.
    And then you think, well, okay, we get her after that. 
She's got a youthful life expectancy of between six to eight 
years now. So when you keep in mind that it takes at least ten 
years to build a new ice breaker and it takes about $1 billion 
we needed to get started yesterday. So I look forward to your 
commitment in working on that.
    Let's stop talking and listen to those who truly get up 
every day to focus on the issues of the Arctic.
    I will welcome each of you with introductions and then we 
will start with your comments. I am particularly pleased this 
morning that we have Admiral Papp joining the Committee. I 
know, Admiral, that you rearranged your schedule to be here, 
and I greatly, greatly appreciate that. I know where your heart 
is on these issues. We've had an opportunity to travel 
together.
    Admiral Papp has been with the Coast Guard for his entire 
career. He served with great distinction as the 24th Commandant 
of the U.S. Coast Guard, and he was a career Cutterman serving 
on six Coast Guard Cutters. He began his Coast Guard career in 
Adak, and it is a wonderful story for those of us who have an 
appreciation of the remoteness and some of the unique 
attributes of being out in Adak with a new bride. But the good 
news story for Admiral Papp and his wife, Linda, is that 
journey that began in Adak continues after many decades of a 
wonderful relationship. He's got a fabulous family, and I have 
been pleased to be able to make their acquaintance as well.
    Admiral Papp became the State Department's Special 
Representative for the Arctic in July of 2014. He has a 
considerable task in front of him as he works to really 
coordinate and facilitate so much of what is happening whether 
it's through the State Department, the White House, the 
legislative branch, or working and communicating with local 
governments at all levels. I truly appreciate the leadership 
that Admiral Papp has presented.
    Next to Admiral Papp is Representative Bob Herron. He is a 
member of Alaska's State House of Representatives, and he is 
co-chair of the Alaska Arctic Policy Commission. He hails from 
Bethel. He was elected to the House back in 2008, but his 
passion for all things Arctic is manifested in all of what he 
does. I appreciate you being here and for what you and Senator 
McGuire have done with the Arctic Policy Commission. It has 
been a considerable effort and is greatly appreciated and 
respected.
    Senator McGuire, welcome to you. Senator McGuire is also a 
member of the Alaska legislature, serving in the Alaska State 
Senate. She's co-chair, again, of the Alaska Arctic Policy 
Commission, and she was first elected to the State Senate back 
in 2006.
    She served in the House of Representatives, and I'm pleased 
to be able to say that we were able to serve together in our 
legislature. She has done a wonderful job for us. She is also, 
along with Representative Herron, co-chair of the Pacific 
Northwest Economic Region Arctic Caucus. Again, that meeting 
will be going on this afternoon.
    In the middle we have the Honorable Mayor Charlotte Brower, 
who is the Mayor of the North Slope Borough. The Borough 
encompasses an area of nearly 95,000 miles. I'm told, Mayor 
Brower, that's about the size of Wyoming. And you are mayor of 
this amazing area. Over 70 percent of the borough's residents, 
there's about 7,500 residents up there, about 70 percent are 
Inupiat Eskimo.
    Charlotte is the first woman to serve as mayor. She was 
recently reelected to another three year term. She's the wife 
of a whaling captain and has a wonderful family there in 
Barrow, Alaska. Welcome and we appreciate your leadership, 
Mayor Brower.
    Dr. Cecilia Bitz, welcome to the Committee. Dr. Bitz is a 
professor in the Atmospheric Sciences Department, an affiliate 
physicist for the Polar Science Center and part of the program 
on climate change, all at the University of Washington. We 
welcome you to the Committee as well.
    Her work includes research into the role of ice in the 
climate system and high latitude climate and climate change. So 
we'll look forward to your comments.
    Rounding out the panel we have Mr. Patrick Arnold. Mr. 
Arnold is the Director of Operations and Business Development 
at the Maine Port Authority.
    Again, I think it's significant that the two states that 
book end the country, Maine and Alaska, are significantly 
represented as we discuss these issues of Arctic policy.
    Thank you to all of you for coming here, many of you flying 
great distances to be here, rearranging your schedules and 
coming through the Arctic weather.
    With that, Admiral Papp, if we can begin with you and thank 
you again, for your service to our country in so many different 
ways.

       STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., SPECIAL 
    REPRESENTATIVE FOR THE ARCTIC, U.S. DEPARTMENT OF STATE

    Admiral Papp. Thanks, Madam Chairman, and let me say, 
congratulations. It's the first time for me to see you in the 
Chair. And as you are a member of our Coast Guard family as 
well, due to your father's service, we're really proud of you 
to be there.
    And Senator Cantwell, another long term friend of the Coast 
Guard and to me personally. She substituted for Senator 
Rockefeller five years ago to Chair my confirmation hearing, so 
I'm indebted to her for that.
    To the rest of the members, good morning to all of you. 
Also good morning to my good friends that I've been able to 
make over the years of visiting Alaska, Representative Herron, 
Senator McGuire and Mayor Brower. I've spent a lot of time with 
them, not only over the last six or seven months in this job, 
but also over the last four years.
    As you noted I started my career in Alaska, and it taught 
me many lessons that lasted me throughout my entire career.
    First of all the tyranny of time and distance in Alaska, 
the severity of the weather, but also the beauty and the ice 
and the challenges that people face while they're living and 
working in that environment.
    It also laid down a marker for me because then visiting 
almost four decades later as the Commandant of the Coast Guard, 
I saw firsthand the changes that are occurring in that very 
sensitive and beautiful environment. So my interest in Alaska, 
in particular, and in the Arctic, more broadly, has been for 
about four decades now. I'm very proud and privileged to be the 
first United States Special Representative for the Arctic.
    I don't have a long statement here in the interest of time. 
I want to get to the questions and answers just like you do, so 
I just wanted to point out a couple of things.
    Our program that we've developed for our Chairmanship of 
the Arctic Council is probably the most aggressive and 
ambitious that's ever been proposed by any one of the Arctic 
countries. It was well underway before I came into the job 
nearly seven months ago. My job, when coming into the State 
Department, was more to organize it and to market it and put it 
in a form that we could bring it forward.
    Much of that depended upon getting input from our friends 
and neighbors in Alaska, so I immediately went to Alaska for my 
first visit in this job. I spent a week up there talking to the 
entire breadth of constituency groups, came back, we revised 
our program slightly, gave it to Secretary Kerry for tentative 
approval, and then made a second visit to Alaska to do some 
more listening sessions and find out where we might improve our 
program.
    We came back, prepared the program and then started our 
efforts towards advertising and bringing it to the public. I 
spoke to a number of groups both environmental, security and 
others then, of course, traveled to Reykjavik, Iceland.
    I would say also, good morning to Ambassador Barber and 
Ambassador Gerhard, good friends of ours and my first 
international speaking engagement was with you in Reykjavik at 
the Arctic Circle.
    Once again, refining our program, getting more input from 
constituents and also the entire federal family, and then 
coming and taking it to Europe. Just three weeks ago I returned 
from two weeks in Europe going to Denmark, Sweden, Norway, 
Finland and to Russia to discuss, at the highest levels in 
their governments, the implications and the agreement on our 
program for the Arctic Council.
    So I wanted to give you the feedback on what I received 
across the board on our program for the Arctic Council.
    First and foremost we have, when I speak to environmental 
groups, they say, well you got the climate issues right, but 
you're a little strong on security. When I talk to security 
groups they say, well, you got the security stuff right, but 
you're a little strong on climate. So I suspect we hit the 
sweet spot there in terms of balance in our program.
    The second comment I get, particularly from the other seven 
countries, is that's a very ambitious program. Are you sure 
we're not taking on too much?
    The only person that contradicts that is Secretary Kerry. 
He always asks me, are we doing enough? Can we do more? So once 
again I think we've found a sweet spot there.
    There are complaints about economic development and that 
the United States might not be committed to the Arctic Economic 
Council. I think that's a misperception, and I look forward to 
answering questions about that.
    The next question we get is are we going to cooperate with 
Russia? And that was part of the reason for me going to Moscow 
was to make sure that we can keep the lines of communication 
open with Russia and reassure the other Arctic countries that 
those lines of communication will remain open for the success 
of the Arctic Council.
    Then the final thing is the other countries are excited 
about the United States' leadership. They will admit that this 
is a very ambitious program, but they're excited because we're 
showing leadership. Leaders set high goals, and once you set 
those goals you have to look for measureable results.
    What we're trying to do with the Arctic Council is to 
operationalize the Arctic Council, get it out of just policy 
decisions and start taking some actions. For instance, 
implementing the search and rescue agreement. Implementing the 
pollution response agreement, and showing and identifying where 
our strengths and weaknesses are.
    Under U.S. leadership the only question that I have coming 
up from the other countries is, you know, we really like what 
you're doing. We're excited, but is the United States really 
committed? We don't sense that you're fully committed to the 
Arctic yet.
    And then what it always reverts to when you talk to either 
the other countries or our friends in Alaska, they say its 
resources. When is the United States going to commit resources? 
When are you going to spend the first dollar on building a new 
ice breaker?
    That's not within my purview at the State Department, and 
it's not within the purview of the Arctic Council to run 
domestic issues for the United States; however, our public 
diplomacy program, we hope, will bring attention to the Arctic 
and to Alaska and hopefully lead to those considerations.
    Madam Chair, I look forward to your questions.
    [The prepared statement of Admiral Papp follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    The Chairman. Thank you, Admiral Papp. I greatly 
appreciate, again, your leadership and your willingness to be 
here with us this morning.
    Representative Herron.

  STATEMENT OF HON. BOB HERRON, REPRESENTATIVE, ALASKA STATE 
                          LEGISLATURE

    Mr. Herron. Yes. Good morning, Madam Chair and to all the 
other members of this Committee.
    We're going to explain to you this morning a little bit 
about the Alaska Arctic Policy Commission's report, and I'll 
take the implementation plan and the House bill that my 
colleagues in the Alaska Senate will vote on next week.
    The implementation plan and the bill follow four priority 
lines of effort. Promoting economic and resource development. 
Addressing the infrastructure and response capacity in the 
Arctic. Supporting healthy communities, and strengthening a 
state-based agenda for Arctic science and research.
    Now Madam Chair, when we started out in this adventure four 
years ago we had three audiences we wanted to target for 
learning what it is to be in Arctic jurisdiction, the 
legislature itself, the executive branch and our federal 
partners. I think we've addressed that in the implementation 
plan and the report as well.
    It comprises that the articulation of Alaska's Arctic 
policy. We want to be a leader in Arctic policy, and we want to 
effectively partner with the federal government on shaping a 
prosperous Arctic future.
    Alaskans are on the forefront of new exploration, new uses 
of Arctic resources and new circumpolar cooperation. Alaska is 
providing relevant information about the reality of an emerging 
Arctic and understand in communicating the critical issue that 
affects our state and instilling confidence in the promise of 
safety and prosperity is essential as Alaska and for America as 
we move forward.
    Now, Senator, we've had this conversation privately, but we 
feel that it's important to share with everyone, we're not a 
snow globe. We're not little Eskimos in a museum and in an 
environment that needs no development. We're not ready for it. 
We don't want that.
    Madam Chair, you have copies of the final report on the 
implementation plan, but I'll just point out four efforts that 
we've identified that are important. On page 17 there are three 
lines of effort that fit into the Arctic Council's initiatives 
and will bolster the Council's activities for economic security 
for the people who live in the Arctic. Another line of effort 
is strengthen and develop a mechanism for resource production 
related revenue sharing. That cannot be emphasized enough 
because any revenue that comes off the offshore has to come 
onshore, and those communities will be impacted.
    The third effort is economic returns to Alaska and Alaska 
communities and the individuals in the maritime fishing 
activities.
    But the other one, this is a shout out to the Coast Guard, 
Admiral Able of the 17th District has already visited the 
capital and my office and the Senator's office, is that there 
is three initiatives that are on pages 22 and 23 that the Coast 
Guard is already working on. They appreciated the partnership 
because they know that the Coast Guard is key to Alaska's 
future.
    I'd like to note just for the record, Madam Chair, that 
this journey I said started four years ago included the 
Northern Waters Task Force that was chaired by then 
Representative Reggie Joule. Those two years identified the 
questions and hopefully this implementation plan provides some 
of the answers and some of directives we need to go forward 
with.
    Also, Senator, you mentioned the PNWER Arctic Caucus and 
that's Alaska, the Yukon and Northwest Territories. I'm proud 
to say that Honorable David Ramsay is in the audience observing 
as well. Those Canadian neighbors are key to Alaska's future 
and to America's future as well.
    And in closing, Madam Chair, is that you represent a state 
that has many faces, but in our Arctic face, Barrow, of course, 
Kotz, Nome, Bethel, Dillingham and King Cove are all in the 
Arctic. Thank you. Thank you, Madam Chair.
    The Chairman. Thank you, Mr. Herron.
    Senator McGuire.

    STATEMENT OF HON. LESIL McGUIRE, SENATOR, ALASKA STATE 
                          LEGISLATURE

    Ms. McGuire. Good morning, Madam Chair and congratulations 
on behalf of all the Alaskans here in the room today, it's an 
honor to see you sitting here and thank you to the other 
members who braved the weather to come out today on this 
important issue.
    As a State Senator, I know how these hearings can bring you 
relevance and can also drain on in other areas. So I'm going to 
try to synthesize a few points down if I were on your side what 
I would want to know.
    The first thing is you heard from my colleague next to me, 
Representative Herron. The two of us have been chairing the 
Alaska Arctic Policy Commission now for the last two years. 
There is a series of reports that are here for you. They're 
online. Your staff will have them. And we hope that you'll look 
to them as a resource to guide you in crafting Arctic policy on 
behalf of the federal government.
    The most important thing that I want to say to you today is 
it is Alaska that makes the United States an Arctic nation, but 
it's all of you and going to take all of you to really bring 
the Arctic into the forefront of federal policy making and 
efforts in the infrastructure development.
    As it's been noted by the Chair and by you, yourself, 
Senator Cantwell, we're behind. In all the places that I've 
traveled and visited along with Representative Herron, we're 
the one of the eight that's the furthest behind. We're lacking 
in any deep water ports. We're lacking when it comes to support 
for spill response, and yet our federal government has taken in 
over $4 billion in lease returns.
    And so, if I were sitting on your side one of the takeaways 
that I would have would be because it affects all of us so 
greatly there are resources that have been taken in by the 
federal government. It's time for us to start investing in 
infrastructure and policies that will move us forward, not just 
words. These are nice words. These are nice policies, but the 
actual investment of infrastructure is something that, I think, 
we'll be looking to you two women to lead on.
    The state has been doing its part. We have a fund that has 
over $50 million in spill response dollars that are sitting 
there in case something would happen.
    We also have one of the greatest, most innovative vessel 
response tracking systems, and I know you both have seen this. 
Captain Ed Page, has presented this.
    We have been a foremost leader in Arctic logistics and 
microgrid technology, hybrid wind diesel electric systems, 
Arctic engineering and of course, the Trans Alaska pipeline, 
the one major Arctic infrastructure project that the world has 
seen. Over 40 years now in existence. Great jobs. We've 
preserved and grown the porcupine caribou herd. We've provided 
safe, environmentally friendly, energy to America. At one point 
20 percent of the domestic supply of energy to this country 
came from that one line.
    So I just want to emphasize that point as well that's 
entirely appropriate that we're here before you today, Madam 
Chair, in the Senate Energy Committee, because the Arctic 
really is that place that holds America's energy security right 
there in its clutches. Between ANWR, between the National 
Petroleum Reserve of America and the Chukchi and the Beaufort 
Sea we have America's energy security sitting right there.
    And so those policies are for you as you move forward, but 
I just encourage us when we do think about the Arctic to 
remember that it was just in 2012 that America was importing 
over 40 percent of its energy from other foreign countries that 
don't favor our belief in women's rights, our belief in human 
rights and in many cases, are our enemies. So that's something 
for this Committee, as you look at Arctic policy.
    The last point that I want to make is the opportunity. 
Madam Chair, you have labeled the Committee hearing today as an 
opportunity. And that is how we, in the Alaska Arctic Policy 
Commission, 26 Commissioners, I want to point out only 10 of 
them were lawmakers, the other 16 subject matter experts. We 
traveled for two years all over the state.
    The first day of every meeting was a listening session, and 
what we heard from Alaskans was opportunity. We've been dealing 
with climate change. We've been dealing with global warming for 
thousands of years, and Alaskans adapt, just like we do today. 
We put on our coats and we get out and we muck through it and 
we adapt.
    What we don't need are policies that might come from the 
federal government that would hamstring us or make it more 
difficult for us to adapt. We're looking for partnership and 
help to adapt to that climate change. But as we move forward 
the opportunity, the $100 billion worth of private capital 
that's out there waiting to come into the Arctic, Alaskans are 
looking forward to that as that next chapter for their economy 
to fill up our pipeline and to develop jobs.
    So I'm not going to read into the record our vision 
statements or our policy statements. They're here for you in 
these three documents. You're members of a Senate Committee. 
You're fully aware of how you can access those and look at 
them.
    I wanted to try to bring a personal face to it. As an 
Alaskan Senator what I would be thinking about if I were on 
your side. And I thank you so much, Senator Murkowski for 
having us today.
    [The prepared statement of Mr. Herron and Ms. McGuire 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, and we do appreciate the good work 
of the Commission.
    Let's go to Mayor Brower, Mayor of the northernmost borough 
in our great country. Welcome.

 STATEMENT OF HON. CHARLOTTE BROWER, MAYOR, NORTH SLOPE BOROUGH

    Ms. Brower. [Speaking Inupiat language.] That's my first 
language. Chairman Murkowski, members of the Committee, my name 
is Charlotte Brower. I'm the Mayor of the North Slope Borough 
which encompasses 95,000 square miles. We're on a road-less 
system.
    We have Nuiqsut, Kaktovik, Point Hope, Point Lay, Atqasuk, 
Barrow, Wainwright and Prudhoe Bay. Those are my areas that I'm 
responsible for.
    I'm a wife of a whaling captain. I have six children, 25 
grandchildren and three I'm very proud of that are in college. 
One to be a mechanical engineer so that one day that they'll be 
able to build a rig that could be environmentally safe for 
footprints of our tundra. I didn't say offshore. I said tundra.
    I want to thank you for the invitation to address you. I'm 
always very happy because our people have lived in the Arctic 
since immemorial, and I want to give a valuable perspective of 
the dialogue today.
    As I mentioned I want to thank, very much, our great 
Senator from our great State of Alaska, Senator Lisa Murkowski, 
who is part of us, who is always looking out for the needs of 
our Inupiat people. She's always been a very tireless champion 
for those of us who are often ignored by policy makers here in 
Washington and her leadership in Arctic issues is vital. Thank 
you, Lisa, for your friendship and support.
    We also want to mention our new governor of our great State 
of Alaska, Bill Walker, our friend, House Speaker, Mike 
Chenault and Senate President Kevin Meyers for their leadership 
over Arctic issues. I believe we're going on a right track.
    To talk about what our country must do to build upon its 
status as an Arctic nation, I must first share some history.
    If you were to travel to the North Slope 70 years ago, you 
would find a semi-nomadic people subsisting off the land and 
living in sod houses much like their ancestors had for 
thousands of years. To have fresh water they had to melt ice 
and snow. To have heat they'd have to burn whale oil, and to 
travel from place to place they had to walk or use a dog team.
    The discovery of oil in Prudhoe Bay changed the shade of 
history as how we see it today. In a period of roughly 30 years 
we experienced over 200 years worth of economic development and 
advancement. We formed a local home rule charter government and 
built roads, airports, schools, hospitals, houses and 
utilities. We created police, fire, first responder and search 
and rescue.
    As I speak my whole North Slope region is experiencing over 
60 to 70 miles per hour blizzard winds, with visibility very 
poor, but our people are very resilient. They have used their 
own local resources, our resources within the North Slope, to 
take care of any matters before we discuss any state disaster 
or national disaster.
    Melting snow for water morphed to turning on a faucet. 
Whale oil was replaced by electricity and natural gas and dog 
teams gave way to automobiles and snow machines.
    The property taxes we collect from oil and gas 
infrastructure still accounts for over 97 percent of the 
revenue collected by the North Slope Borough to provide local 
public services. It also generates private sector revenue 
streams and jobs through our native corporations that are 
shared with other native corporations throughout our great 
State of Alaska and are distributed as dividends to Alaska 
native shareholders.
    These funds provide the economic life blood of our region. 
They allow us to be self sufficient, allow our communities to 
grow and even provide the means for us to support our 
subsistence activities. But as many of you know, our economic 
realities are changing.
    Oil and gas production on Alaska's North Slope is 
shrinking. The Trans Alaska pipeline flows at a third of what 
it used to be. And the consequences of changing climate coupled 
with the large costs of building and maintaining vital 
infrastructure in the Arctic are overwhelming to the state and 
local government.
    Just like our past, responsible resource development 
promises to provide the economic engine to provide future 
prosperity, but today those future prospects for developments 
lie on the federally-controlled lands and waters. And 
unfortunately our federal government does not seem to share the 
same enthusiasm as our state in the development of its 
resources.
    Over the past few years our federal government has closed 
50 percent of NPRA oil-to-oil and gas development, proposed 
wilderness designations for the oil rich coastal plain of ANWR 
and has refused to lease portions of the Outer Continental 
Shelf. It seems as if this current Administration is doing 
everything within its power to hamper or restrict resource 
development in our region.
    This bias against resource development is also reflective 
in our country's Arctic strategy. Instead of focusing on 
initiatives that could improve the economic conditions of 
America's Arctic people, our government has chosen to side with 
powerful special interest groups and to focus on issues like 
climate change, creating new layers of governance over the 
Arctic and ideas for Pan-Arctic marine-protected areas.
    The importance of these issues pales in comparison with the 
current needs of America's Arctic residents, and they fail to 
further their status as an Arctic nation. They provide no 
mechanism for things like the construction of ice breakers, 
transportation, infrastructure and other critical deficiencies. 
In some ways it seems like our national strategy for the Arctic 
is like fixing the mailbox while the house burns down.
    We hope that our government will recognize the importance 
of economic security to those of us who live in the Arctic by 
including more specific economic and resource development 
initiatives during our Chairmanship of the Arctic Council, 
because if our federal officials were to consult us they might 
begin to understand that their current policies will lead us to 
a future where we struggle to provide basic public services. 
Where our subsistence practices and food security are put in 
peril because our people can no longer afford to hunt. Where 
our culture and communities wither because our residents are 
forced to leave our villages and move to the big cities. And 
where those that remain dwindle in the hopelessness of lost 
jobs and opportunities.
    Our quest for self-determination will be replaced by a 
complete dependency on the government which we have worked very 
hard not to be.
    Perhaps there are some hope to see us revert to the old 
ways, to live in igloos and travel by dog team, relegated to 
being mere exhibits in a large, open air, Arctic museum, but 
that is not the future that we want to leave to our children 
and grandchildren. No one has better appreciation of the 
importance of the Arctic than the Inupiat.
    We are the first Arctic nation. Our spiritual connection 
with the land coupled with our knowledge and experience have 
enabled us to strike the proper balance between protecting the 
environment and developing our resources throughout our 
history. We have a keen understanding of what it will take to 
continue to grow the economic prosperity of America's Arctic 
people, and we've already demonstrated our willingness to lead 
through local initiative such as the Arctic Waterway Safety 
Committee and the North Slope Port Authority.
    It is our hope that our federal policy makers will partner 
with us instead of opposing us so that we can build a strong 
Arctic nation together.
    [Speaking Inupiat language.]
    [The prepared statement of Ms. Brower follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mayor Brower.
    Let's go to Dr. Bitz, please.

  STATEMENT OF DR. CECILIA BITZ, COLLEGE OF THE ENVIRONMENT, 
         SCHOOL OF ATMOSPHERE, UNIVERSITY OF WASHINGTON

    Dr. Bitz. Thank you, Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee. I appreciate the 
opportunity to discuss Arctic climate change and new frontiers 
in an Arctic environmental research with you today.
    The climate has changed in many ways across the globe since 
pre-industrial times. Global surface temperature has warmed 
about one and a half degrees Fahrenheit. The pace and 
characteristics of climate change are consistent with 
scientific understanding of the climate response to human 
activities.
    For a region of its size the Arctic has experienced the 
fastest surface warming on Earth. In addition, the subsurface 
of the Arctic Ocean is warming faster than anywhere else in the 
world's oceans.
    When I was a graduate student I first looked at the sea ice 
extent records from satellites when the record was half as long 
as it is today. We knew then that the sea ice extent was 
retreating, but the limited observations available did not 
signal the rapid decline in summer sea ice that we know today.
    Now with expanded observations and understanding, we have 
developed global Earth system models with historical 
simulations of the Arctic sea ice loss in reasonably good 
agreement with reality. These models predict the Arctic will be 
nearly sea ice free by the end of summer, roughly at mid-
century.
    I've emphasized the loss of Arctic sea ice because it is an 
amplifier of climate change and air warmed over sea ice is 
transported towards the land surrounding the Arctic. Warmer air 
in winter increases the likelihood of freezing rain and rain on 
snow events. Both can significantly disrupt mobility of humans 
and animals. Subsistence hunters suffer twice with the 
difficulty of traveling and a diminished population to hunt.
    Warmer air leads to thawing permafrost that can damage 
roads and buildings and lead to greater particulate runoff into 
the rivers and the Arctic Ocean, changing ocean chemistry and 
affecting fish and marine animals. Atmosphere and ocean warming 
are causing land ice mass loss which is the highest contributor 
to observed global sea level rise today. Greenland alone 
contributes one quarter of the global sea level rise, and sea 
level rise affects us all.
    Arctic coastal villages are threatened by rapid coastal 
erosion from a combination of fine permafrost, sea level rise, 
greater wave heights and worse storm surges due to reduced sea 
ice.
    In July 2007 I was an instructor at a course on sea ice 
that was an activity of the International Polar Year. More than 
100 students and instructors were present at an Arctic village. 
We had grown accustomed to seeing sea ice set records. Though 
with the evidence surrounding us at that time, we did not 
predict that in September 2007, just two months later, the sea 
ice would shatter the previous record low by 20 percent.
    Today I co-lead a community effort known as the Sea Ice 
Prediction Network which coordinates and leads scientists 
worldwide to improve sea ice predictions from a few weeks to a 
few years in advance. Our prediction systems must blend the 
methods used to predict weather and longer term climate 
signals. Weather forecasting has a half century lead on sea ice 
forecasting.
    But there is much we can do to make these systems much 
better, and with continued investment in observations and 
research I believe we could forecast optimal shipping routes 
and give coastal communities advance notice of offshore sea ice 
type and the potential for damaging waves. Our Earth system 
models today have the capacity to produce wide ranging 
information that is beneficial to society such as chemical 
cycling, near shore sea ice conditions and biological activity.
    Arctic scientists are actively exploring the extent to 
which a changing Arctic can influence the lower latitude 
weather. For example, longer lasting colder outbreaks is one 
possibility. Our European colleagues have found that when their 
models include a more realistic Arctic forecasts improve in the 
lower latitudes as well.
    Sustained observations are essential to our ability to 
predict the Arctic environment. Observations at a process level 
and across the Arctic are needed. An observing network of the 
Arctic Ocean sea ice and surrounding land is challenging to 
construct, but the payoff is clear.
    Investments in Arctic research is essential to a safe and 
productive future for us all. U.S. research institutions are a 
key player in Arctic research because they offer scientific 
excellence and progress in Arctic science. University 
scientists are uniquely able to include undergraduates in our 
research and to educate the wider population.
    I look forward to your questions. Thank you.
    [The prepared statement of Dr. Bitz follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    The Chairman. Thank you, Dr. Bitz. I appreciate your 
comments this morning and your being here.
    Finally let's go to Mr. Arnold. Welcome to the Committee.

  STATEMENT OF PATRICK R. ARNOLD, DIRECTOR OF OPERATIONS AND 
           BUSINESS DEVELOPMENT, MAINE PORT AUTHORITY

    Mr. Arnold. Thank you, Madam Chair. I am privileged to join 
you all on this fine Arctic summer day.
    I'd like to thank you for allowing me the opportunity to 
speak on these opportunities in the Arctic. I'd like to 
especially thank Senator Murkowski and Senator King for the 
leadership they're showing working together in forming an 
Arctic Caucus and Senator Cantwell for acknowledging Maine's 
recent leadership in this and calling me as a witness.
    If there were one take away from this hearing, I would hope 
it would be that anything in the Arctic requires cooperation 
and that openness that sometimes does not come easy.
    Since 2013 the Icelandic steam ship company Eimskip 
established its single U.S. port of call in Portland, Maine 
connecting Maine directly for the first time in decades to 
Scandinavia, Northern Europe, Iceland, Greenland and 
Newfoundland. This shift brought Maine as close to these 
countries from a freight/cost perspective as it is to the Mid-
Atlantic. Through a close collaboration with Iceland, Maine has 
entered into dialogue and trade relations with several Arctic 
nations in the high north and has been establishing 
relationships based on trust and mutual consideration.
    Our approach has been simple. Build trade and mutual 
economic opportunity and all else will follow. We believe this 
to be true.
    At the Arctic Summit Symposium titled, ``Leadership in the 
High North'' held in Bangor, Maine in May 2014, hosted by the 
Maine National Guard and the U.S. Coast Guard, retired North 
Com General Jacoby, said in regards to the Arctic, ``Build the 
rail and the cavalry will follow.'' The rail being, we believe, 
economic opportunity and collaboration and the cavalry in this 
case perhaps being ice breakers.
    Maine's activities in the high north, starting with trade 
lanes set up by Eimskip, have opened opportunities in cultural, 
educational and political exchanges that have benefitted Maine 
as well as the countries and people we exchange with. Through 
this exchange we work towards stability in our Arctic 
relationship in an environmentally sensitive and culturally 
inclusive manner and we endeavor to lead by design. This is who 
we are in Maine.
    In order for trade lanes to be well established, I agree 
that the administrative focus on safety, security and 
stewardship regarding the Arctic Ocean is what is needed. 
Additionally, with the goal of improving economic and living 
conditions in this region, as this can be done with trade as 
well.
    As a former navigation officer on U.S. Jones Act ships, I 
spent time navigating waters globally including as a navigation 
officer on cruise ships with Norwegian Cruise Lines that 
transited between Seattle and Alaska as well as the waters in 
Hawaii. Arctic shipping lanes would benefit by charting routes 
and understanding the region's unique navigational challenges 
with real time mapping of ice flows being one such challenge. 
While there are geo-political implications of any action in 
this region, there are priorities that are more important such 
as the safe ability to transit these waters and visible 
participation supporting right of innocent passage as implied 
in the Law of the Seas.
    With the Trans Polar route being the furthest from being 
ice free and the northern sea route and the Northwest Passage 
both requiring cooperation, the U.S. would be well served in 
ratifying the Law of the Seas.
    Ice breaking is the lowest hanging fruit for the U.S. to 
jump into Arctic assistance and Arctic development. Without 
this capability the U.S. does not have the opportunity to lead 
in a meaningful way regarding support of future trade lanes or 
present natural resource opportunities or contributing to 
search and rescue commitments.
    Maine is merely an example of how this nation can lead 
alongside Alaska in Arctic affairs.
    First, opening lines of trade that allow for mutual 
prosperity, and then building on top of these trade lanes 
policies and opportunities for cultural and educational 
exchange that lead to lasting relationships.
    This will be important given the rapid change in Arctic 
conditions due to climate change. Regardless of opinions, 
change is inevitable and what matters is how we adapt to it 
while mitigating the negative aspects of human contribution to 
it. We can only improve and prosper more by working together 
with the people and the countries in the Arctic.
    Thank you.
    [The prepared statement of Mr. Arnold follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Arnold. We appreciate you 
being here today as well.
    We'll now turn to a round of questions from the members 
here.
    I want to let my colleagues know that in addition to what 
Senator King and I are doing with the Arctic Caucus, I'm 
looking to develop an Arctic infrastructure type bill that--
well it's not the deep water ports. It's some of the basics 
that, I think, most folks assume we have in place up in our 
Arctic waters.
    First and foremost is better charting, better hydro graphic 
charting. If we're going to see the level of commercial 
activity that we are seeing, we need to know that we have 
accurate maps and charts. In addition things like weather 
stations and ice forecasting as Dr. Bitz has mentioned are 
imperative for us. Weather buoys, electronic buoys, 
navigational aids that assist us.
    So when we look to some of the budget, and I know this 
isn't a budget hearing, I will tell you that I become concerned 
that we're not seeing the budget priorities placed in areas 
that we could be making a difference. NOAA's budget has a 
reduction in their ocean exploration and research program which 
effectively is the area that looks to the mapping and the 
charting issues. In addition, I'm always worried about our 
Coast Guard budget, always worried that we ask so much of our 
Coast Guard men and women and we don't resource them properly.
    So we've had a lot of discussion about the need for an ice 
breaker, a billion dollar proposition, but the fact remains 
that it is more than just an ice breaker. The funding for 
Arctic operations in the budget is actually down. We need to 
make sure that we are resourcing appropriately. Admiral Papp, 
you mentioned that specifically in your comments.
    You also mention, Admiral, that there is perhaps a 
misperception out there about the Administration's position or 
support for the Arctic Economic Council in promoting economic 
development within the Arctic. We clearly heard from Mayor 
Brower as well as our two members of the Alaska legislature the 
imperative for economic opportunity. Can you speak to that 
misperception and perhaps clarify?
    Admiral Papp. Yes, Madam Chairman. It came across loud and 
clear when I started listening sessions that there was both 
confusion and disappointment over the way we approach the 
Arctic Economic Council. I would say as I've had a chance to 
put this back together and look at it over the last six months, 
we may have approached it differently if I understood the issue 
but that was already in motion by the time I came into this 
job.
    What I would say is I think each one of the eight countries 
have approached it a little bit differently. The United States, 
in particular, is, I think, different and comes into an apples 
and oranges comparison because many of the other countries in 
the Arctic Council own companies. There are government-owned 
companies that are then selected by the government and placed 
in positions on the Arctic Economic Council.
    As we all know, we have a culture in the United States of 
staying out of private industry. And granted, there's 
regulations and other things, but the federal government does 
not own industries.
    So we approached it from a different perspective and asked 
that the Canadians, when they put out their solicitation, to go 
to the Alaska Chamber of Commerce and ask them for input on the 
companies to be representing the United States on the Arctic 
Economic Council. So we did approach it differently. I think 
the Alaskans should be pleased that they were able to pick 
their companies to represent us, and as I look across all the 
companies that are represented or lobbying type firms that have 
been recommended by the other countries, not one of the 
countries have approached it exactly the same.
    It's one of the issues that we intend to take on during our 
chairmanship to clarify the role of the Arctic Economic 
Council. It's very high on our priority list in terms of 
strengthening the Arctic Council. We value the input of 
industry and these companies, and we will look on how we can 
improve and move away from this misperception of our lack of 
support for it.
    The Chairman. Well, I thank you for that clarification. As 
you know it was an issue that I raised with Secretary Kerry 
when we met several weeks ago, because I think it is an 
imperative that we should carry forward. There are many things 
that are presented within the Arctic Council and, based on who 
is chairing at that time, that initiative either carries 
forward or it stops. I would suggest to you that this needs to 
be a priority that the United States carries forward from what 
Canada has built and that when we pass the gavel in two years 
that that will continue.
    Again when we talk about the Arctic and recognizing the 
priorities that have been laid out in the proposal from the 
United States, climate is one aspect of what we're dealing with 
but an economy that allows for the people of the north to not 
only exist, but to thrive is critical. So I thank you for that 
clarification.
    Admiral Papp. Yes, Ma'am.
    The Chairman. Let's turn to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Admiral Papp, I think I want to start with you on this 
question about investment and resources. I'm sure to some 
people this sounds like a lot of the infrastructure investment 
might cost a lot, but it just reminds me of a guy named 
Jefferson who sent two people named Lewis and Clark and said 
get out there and define this area for us. I'm sure it took, 
for a very young nation, a lot of focus to understand why we 
would be spending all those resources in the Pacific Northwest, 
but thank God we did. So I think the same question is here 
today. What's it going to take to get people to wake up, to 
make people realize that you have to have the resource 
investment?
    As the U.S. takes over the Chairmanship of this Council, do 
you have a recommendation yet on infrastructure investments 
that we would need as part of a comprehensive Arctic strategy?
    Admiral Papp. I'll say this once so I don't have to go back 
to it. My job as the U.S. Special Representative is 
international diplomacy. The State Department doesn't have an 
impact directly on domestic issues and domestic resourcing; 
however, we have taken that into account in our program with a 
very heavy public diplomacy effort to raise the awareness of 
the Arctic to the extent that we can by having meetings in 
Alaska of our senior officials. We're hopeful that we can bring 
the most senior levels of our government to Alaska for events 
and draw the attention to the American people to the needs that 
exist in the United States portion of the Arctic.
    In terms of resourcing I've seen, as we all have, what's in 
the U.S. national strategy for the Arctic. We have the 
implementation plan which is very extensive, but there are 
about 22 or more agencies or departments that that impacts.
    And that's why the President came out with the executive 
order which creates the Arctic Executive Steering Committee 
which just had its first meeting, and hopefully they're going 
to start and produce gaps and overlaps analysis on where we can 
begin to set priorities for resources that are needed in the 
Arctic.
    What I would say, from my professional experience and 
having been working in Alaska for at least the last five years 
or so now directly observing what needs to go on there, the 
needs have been identified. There are plenty of needs up there 
that have been identified.
    Senator Cantwell. Like ice breakers.
    Admiral Papp. It's just--pardon me?
    Senator Cantwell. Like ice breakers.
    Admiral Papp. Ice breakers is one of them. You can trace 
the history of this country back to the Federalist Papers that 
talk about the need for maritime safety and security for 
prosperity of this country. Alaska's maritime is opening up. 
Their needs for maritime safety and security are huge.
    I get accused as any, well, it's typical that a former 
Commandant on the Coast Guard would speak this way, but that's 
who I am and I think that's why I was hired.
    And the maritime needs up there, in particular, charting 
was already mentioned. Many of the soundings up along the North 
Slope are from Cook's third voyage back in, I guess it was 
1778. And I've confirmed this with the oceanographer of the 
Navy. Sounding is up there were from led lines in sailing 
ships.
    But ice breakers, you know, we get wrapped around the axel 
talking about do we need six, do we need three and three, 
whatever it is. The fact of the matter is if you're talking 
three and three or four and two or whatever it might be then 
there's at least a need for one.
    Senator Cantwell. Yes.
    Admiral Papp. And we haven't even started on the one yet.
    So there's plenty of needs that are already identified. We 
just need to get about the business of setting some priorities 
and having the determination to start resourcing them.
    Senator Cantwell. Thank you.
    Dr. Bitz, what do we need to get a national scale, federal, 
robust Arctic research program going?
    Dr. Bitz. Are you asking----
    Senator Cantwell. I hear that we're using information from 
Captain Cook's efforts as the real measurements that we've had 
in some of these areas, so what do we need to do to get the 
data and information, the need for which Mr. Arnold laid out in 
a very robust way? What's at stake in these new shipping lanes? 
We're going to have to have good data and information on the 
Arctic to provide people with accuracy.
    Dr. Bitz. Right. We need----
    Senator Cantwell. And the Chairman mentioned a magic word 
here. I have my Coast Guard and fisheries staff person here and 
smart buoys would make anybody jump up and cheer, so the 
Chairman's mentioning of that is a particular area that all 
throughout the Pacific Northwest we're interested in.
    Dr. Bitz. Right. We need sustained observing networks. We 
have limited numbers of buoys. These are very useful for 
prediction and for understanding. We utilize all that data, but 
it's just in localized regions. We have estimates of where we 
need observing stations and at this point we're limited, and we 
are under sourcing the number we could utilize.
    The satellite networks are also of extreme value. 
Commitment to keeping what we have and improving the number 
that exists today is also critical for us. At this time what we 
absolutely have need for prediction of sea ice and sea ice 
thickness and type of sea ice. And we do not, in the U.S., have 
a sea ice thickness observing satellite at this time. We use a 
European satellite which is accurate, but we hope we could do 
better. It's not as good as we----
    Senator Cantwell. So the Europeans have better data on this 
than we do?
    Dr. Bitz. Absolutely, but they share it with us so that's 
pretty good. And----
    Senator Cantwell. Well, all they did with Sandy, but we 
would have been better prepared for Sandy if the U.S. would 
have had the supercomputing data and forecasted that out even 
further and helped the local governments plan. Because once, as 
we all know in the Pacific Northwest, we know events are going 
to happen, the question is having the ability for local 
governments to plan for those events and getting the 
infrastructure and warning systems and everything in place so 
that we can respond quickly. Thank you.
    I'm sorry. I know my time is expired.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair, and I have to tell a 
tale on you, Madam Chair, before I begin. I approached the 
Chair on the Floor of the U.S. Senate about a year ago and said 
I would like to be the Arctic Senator. The response was, ``No, 
you can be the Assistant Arctic Senator.'' [Laughter.]
    So those of you from Alaska, I want you to know that the 
hierarchy is very clearly established here. [Laughter.]
    I also recently met with the Speaker of the Icelandic 
Parliament who left me a wonderful book, the Sayings of the 
Vikings, the eddic poems, a thousand years old, and I think 
apropos of our hearing today is the little poem, ``Seeking 
Knowledge.''
    ``The cautious guest who comes to the table speaks 
sparingly, listens with ears, learns with eyes, such is the 
seeker of knowledge.'' What a lovely thought for us to try to 
attempt to emulate here in the Congress.
    Admiral Papp, a very specific question, your title is U.S. 
Special Representative to the Arctic. How big is your staff? 
How many people do you have in your office?
    Admiral Papp. It's a day-to-day proposition, Senator. 
Actually within my personal staff we have a total of four, 
including me, but my job is to coordinate across the State 
Department. When I started the job I thought this is a rather 
small staff and this is going to be very difficult, but the 
fact of the matter is there are people in all the regional and 
functional bureaus across the State Department that have some 
touch point for the Arctic.
    So what Secretary Kerry has asked me to do is to coordinate 
across all of those. I deal with the Assistant Secretaries 
primarily for Europe and Eurasia, but also the Western 
Hemisphere because of Canada. They cover the countries of the 
region, but then whether it's economic development, politics, 
military, whatever, we have people who are matrixed together 
that literally, I've never been able to count them all, but 
literally there are dozens of people who work the Arctic 
issues. And then, of course, we work across the interagency as 
well. I have that latitude.
    Senator King. I understand that, but I would suggest that a 
staff of three in this situation does not represent a 
significant commitment by this country.
    Second question. Practical limitations or practical 
disadvantages to the U.S. of not joining the Law of the Sea 
Treaty?
    Admiral Papp. Practical on a day-to-day basis, not a lot 
because----
    Senator King. But I'm talking about things like territorial 
claims and the adjudications. I understand by not being members 
we're out of that process.
    Admiral Papp. That's the biggest part of it. That's 
probably the largest impact is we cannot perfect a legitimate 
claim on Outer Continental Shelf. We can do the research. We 
can develop our claim which we are doing.
    There have been, I think, six voyages over the last eight 
years or so to map out, at least in the Arctic, where we think 
our extended continental shelf claims are. But we don't have 
standing to be able to then go to the Continental Shelf 
Commission to lay our claim down and then have it validated and 
then go into negotiations with the bordering countries.
    Senator King. Meanwhile the other bordering countries, 
particularly Russia, are staking claims which are quite 
extensive.
    Admiral Papp. For the Arctic the big ones have been Russia, 
Canada is just about ready to go with its claim, and of course, 
Denmark got a lot of publicity recently by putting its rather 
large claim in including overlapping on the North Pole with 
Russia.
    Senator King. I'm running short on time. For the record I'd 
like you, if you could, to supply us with a list of legislative 
priorities. Things that we should be addressing. We don't need 
to go into that now, but if you can supply that after the 
hearing.
    Admiral Papp. Yes, sir.
    Senator King. Final question, talking about charting. The 
U.S. Navy is up there. I was on a Virginia-class submarine 
under the Arctic ice about a year ago. Are they providing data 
for charting? It strikes me as inefficient if we've got ships 
in the Arctic Ocean with amazing capabilities for measuring 
what the bottom looks like if we're not gathering that data to 
contribute to charts.
    Admiral Papp. Well, sir, as you know the discussions of 
where, how, what they are, and what numbers the Navy has up 
there would have to go into a classified session.
    Senator King. Well, my question is are we gathering data 
that's being contributed to the public realm for charting?
    Admiral Papp. They can, but the needs for charting are in 
the more shallow waters. Navy, with the type of assets they 
have up there stay in some rather deep water. I'm sure they 
gather information, but it cannot contribute to the type of 
data that we need which is coastal in the shallower waters 
where a lot of that maritime traffic is going to go.
    Senator King. Thank you very much.
    Madam Chair, I'm out of time. Thank you for all of the very 
good testimony today. I appreciate it and I think the record 
should show you mentioned about witnesses flying from great 
distances. Our man from Maine came overnight on the train in 
order to get here to beat this weather here in Washington, so I 
wanted to express my appreciation to Mr. Arnold.
    The Chairman. We appreciate that a great deal.
    I just want to add before we go to Senator Hirono, talking 
about what might be available from the Navy and other 
opportunities to help us get better chart data. I think it 
should also be noted that when private industry goes out 
exploring they also need to be understanding what is happening 
on the bottom, and so there may be some private/public 
partnerships there that we can be talking about.
    Senator Hirono.
    Senator Hirono. Thank you very much, Madam Chair, and I 
thank all of the panelists.
    Madam Chair, I think those of us who are here should get a 
gold star for showing up. [Laughter.]
    Yes, I think that's a good idea.
    The Chairman. Yes, a golden nugget. [Laughter.]
    Senator Hirono. I'm very glad that Senator King asked 
Admiral Papp the question about the fact that the United States 
is really losing out in making our claims to the Outer 
Continental Shelf because we are not party to the UN Convention 
on the Law of the Sea, and we can fix this by joining this 
convention along with 167 or so other countries that are 
members, wouldn't you say?
    Admiral Papp. Yes, Senator. In my previous assignment I 
testified before the Foreign Relations Committee when Secretary 
Kerry was the Chairman. That was the last time that that had 
been brought forward in the Senate. In fact it was not just me. 
It was, I think, three other admirals and two generals that 
were on the panel.
    I just think that, as a practical thing, every time, every 
international venue I go to the conversations with the United 
States starts out with a lecture on why have we not ceded to 
the Law of the Sea Treaty and shown leadership that I think 
it's now 186 other countries have signed onto it. And the 
countries that have not are ones that I would rather not have 
us associated with.
    So yes, we comply with it, but there are limitations on 
what we can do, particularly for the Continental Shelf.
    Senator Hirono. I don't know why the Senate has not 
confirmed our membership, but I think it is high time because 
as we sit here talking about economic development issues in the 
Arctic area, it doesn't make a lot of sense to me and I'm sure 
some of my colleagues that we are not party to that convention.
    Admiral Papp, I would say there's probably and perhaps to 
the panelists here that in some ways it's ironic that global 
warming, climate change has opened up areas of the Arctic to 
further resource extraction of oil and gas. So can you talk 
about how you will fulfill the President's objectives to reduce 
U.S. greenhouse gas emissions and reach an international 
agreement to limit global emissions in light of the interest of 
the United States and other Arctic nations in developing the 
oil and natural gas deposits that will be opened as Arctic ice 
recedes?
    Admiral Papp. Well, Senator, I'm not going to be able to 
reduce those or make any progress on them. My job is to prepare 
us for the Arctic Council, but we're drawing attention to what 
climate change is doing, not only to the Arctic, but also to 
the rest of the world because of this change. We wouldn't be 
there if it were not for the change.
    We do have black carbon and methane studies that have been 
going on through the Arctic Council. The reason the Arctic 
Council was started was for environmental protection and then 
creating sustainable development. Those are the key factors 
that have been a part of the Council since its existence.
    So we will highlight those things over the course of our 
Chairmanship of the Arctic Council as other Departments take 
the efforts forward to the COP meeting in Paris, and as the 
President negotiates other agreements the Arctic will be 
highlighted so it shows the rapid change that's occurring with 
that environment and hopefully through our process and our 
elevations where public diplomacy for the Arctic Council will 
bring that to the attention of the American people.
    Senator Hirono. So you see the need for balance. Balancing 
our desire to reduce global warming, climate change and the 
desire for the economic activity in that area. So I think that 
that is really in heightened perspective in this area of the 
world.
    I wanted to just ask, Madam Mayor, you know, Hawaii also 
has a native people, the native Hawaiians, so we are very aware 
of the need to involve the voice of the native peoples in any 
kind of discussion that would lead to development, economic 
sustainable communities, etcetera. You noted in your testimony 
that you did not think that our country has given sufficient 
voice to the native peoples of Alaska.
    So in saying that do you speak for all of the Alaska tribes 
and other leaders in Alaska?
    Ms. Brower. Through the Chair, Senator Hirono, I want to 
thank you for that question.
    I believe that this has been a discussion ever since 
President Obama had given his executive order that his first 
consultation would be directly with the tribes which had really 
sustained a lot of questions and concerns among, not only 
municipalities of which I serve but also the regional 
corporations, who are for-profit corporations, village 
corporations and all for-profit and non-for-profit 
corporations. And through that are all tribal members of which 
there are members in all capacities.
    The whole issue I say is I represent the people that also 
belong to those entities in the region that I serve, and then 
when you go outside of my region which is the whole State of 
Alaska also represents the same.
    In the instance that we've done in the last four years that 
we worked very hard in tribal consultation because we recognize 
that even speaking to our Department of Interior we have to 
have a tribe member with us. We have to have a person who 
belonged to a native village that is an IRA status. So when we 
realized that we needed their consultation, we went back and we 
decided that the best way that we can do this, to have all open 
communication, was to have tribal consultation, government-to-
government consultation, meaning that we have to also include 
the before-profit corporations because they are serving the 
same tribal members.
    So we created what we call Voice of the Arctic which 
includes all entities and all entities meaning that we have our 
village corporations, our regional corporations, those that 
serve in the native corporations, city governments, as well as 
the North Slope Borough. And we will have our first official 
meeting March 9 and 10, and we welcome anyone to come and 
listen.
    In fact, entities such as the Bureau of Land Management 
will take an opportunity to discuss with the tribal leaders 
along with the regional leaders and the municipal governments 
in discussing issues that impact our region. I have great 
honors to the NANA regional corporation, the AMITA Corporation, 
all the native, tribal organizations from the North West Arctic 
Borough who has been here in discussing a lot of their region 
issues.
    It's the same way when you come in numbers you don't come 
in numbers at times, but you do have a very well 
representation. And that, I believe, I do have that very strong 
trust in what we do because everything that we've done if we 
were to wait for the federal government and the State of Alaska 
to do our services in the very harshest region that we live in 
in the whole State of Alaska, we'd never get anything done. So 
we have to have trust from our tribal entities which are our 
tribal members. So, yes, I do come with that trust.
    Senator Hirono. Madam Chairman, my time is up, but I do 
commend Mayor Brower for doing everything she can to bring the 
various perspectives at the table so that voices are heard.
    Thank you. Mahalo.
    The Chairman. Thank you, Senator Hirono.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, for having this 
hearing. By the way since both the Ambassador to Iceland and 
Ambassador from Iceland are here, my wife Frannie and my 
sister-in-law went to Iceland for about ten days a couple weeks 
ago and just loved the whole trip.
    Let me ask Dr. Bitz, we're basically seeing this decline of 
Arctic sea ice, and that's what's making available these 
shipping lanes and possible additional areas to explore for oil 
and gas. This is the effect of climate change, right?
    Dr. Bitz. I think at least a large portion of the decline 
is due to climate change, to human activity.
    Senator Franken. Right, and that a lot of climate change is 
due to the burning of fossil fuels, right?
    Dr. Bitz. Yes.
    Senator Franken. Okay, so we have a bit of an ironic 
situation here, do we not? I think everyone sees that the 
burning of fossil fuels is creating an opportunity to find more 
fossil fuels to burn.
    Dr. Bitz. It is obviously ironic, yes.
    Senator Franken. Yeah, that's funny how ironic it is. It's 
hilarious. So the state is melting to some degree. I mean, 
that's what's happening, right? Our Alaska friends? The coastal 
communities are obviously feeling it, and my understanding is 
this is a very expensive problem to fix when some of these 
coastal communities have to relocate. Is that right? I heard 
estimates of about $380,000 per person to relocate. Is that 
correct, Mayor? Is that about right?
    Ms. Brower. At a minimal of that cost.
    Senator Franken. Okay, okay. So this is also expensive. I 
just want to make it clear because very often my colleagues on 
the other side of the aisle do not recognize that climate 
change is happening, is caused by human beings, and that it has 
its costs.
    Now it's creating some opportunities including shipping 
lanes and shipping lanes may be more efficient, actually, but 
it's also presenting some opportunities that ironically may 
actually, while they create economic opportunities, are also 
possibly exacerbating the situation.
    Is that, Dr. Bitz, a good summary? Am I hitting this over 
the head too hard?
    Dr. Bitz. I think that is true.
    Senator Franken. Okay, can you describe the various aspects 
of climate change that will be amplified by the rapid decline 
of sea ice? I mean, won't there be areas that now absorb more 
sunlight because, I mean, ice is white?
    Dr. Bitz. Yes, that is the one driver of the amplification 
that occurs in the high latitudes that a retreat of a highly 
reflective surface in replacement of a very absorbing one 
amplifies the initial cause of warming.
    Senator Franken. What effect will that have on those who 
live in lower latitudes?
    Dr. Bitz. Right, well this is an area of active debate in 
the climate community but the hypothesis is that it will cause 
larger extremes such as have occurred in the eastern coast of 
U.S. in the last two years with very harsh winters, so larger 
excursions in both warmer and cooler. So of course in my home 
state it was warmer than usual this winter. That's hard to even 
say winter because it was so warm.
    Senator Franken. Well, what state is that in?
    Dr. Bitz. Washington.
    Senator Franken. Oh, the State of Washington. Well my time 
has run out, but I want to thank the Chair for this hearing.
    The Chairman. Thank you, Senator Franken.
    Senator Sanders.
    Senator Sanders. Thank you, Madam Chair, for this very 
interesting hearing. I want to pick up on a few of the points 
that Senator Franken made because I find this really 
fascinating.
    The scientific community is virtually unanimous in telling 
us that climate change is real. Climate change is caused by 
human activity. Climate change is already causing devastating 
problems in the United States and around the world, and if we 
do not get our act together and significantly cut carbon 
emissions that problem will only become much worse in years to 
come.
    That's what the scientific community virtually unanimously 
tells us. We need to cut carbon emissions. We have to transform 
our energy system away from fossil fuel.
    I don't have a whole lot of time. I would like to start 
with Admiral Papp and just go down the line. Do you believe 
what the scientific community is saying about the need to 
transform our energy system away from fossil fuel? Admiral?
    Admiral Papp. Senator, that's a part of our program, and we 
have put renewable resource----
    Senator Sanders. Very briefly. I don't have a lot of time. 
Sorry, I don't have a lot of time. Yes, no, maybe?
    Admiral Papp. Yes, we should broaden out our sources for 
energy beyond fossil fuels, but the reality is we don't have to 
depend on them.
    Senator Sanders. Mr. Herron?
    Mr. Herron. Yes, Senator, in my community we use diesel. At 
remote location, ice bound, six months of the year.
    Senator Sanders. No, my question is do you agree with the 
scientific community that we need to transform our energy 
system away from fossil fuel?
    Mr. Herron. Yes, sir.
    Senator Sanders. Okay, I apologize, I just don't have a lot 
of time. Ms. McGuire?
    Ms. McGuire. I think that it will take longer to answer 
than I can give you just to answer.
    Senator Sanders. Okay, thank you. Mayor?
    Ms. Brower. Combination of both.
    Senator Sanders. Okay. Dr. Bitz?
    Dr. Bitz. Yes, we need alternatives.
    Senator Sanders. Mr. Arnold?
    Mr. Arnold. Yes, we should be mitigating alternatives.
    Senator Sanders. A report by the U.S. Army Corps of 
Engineers predicted that the highest point in the village of 
Newtok, Alaska, I hope I'm pronouncing that correctly, could be 
underwater by 2017. A proposed move to higher ground may cost 
as much as $130 million. A federal government report found more 
than 180 other native Alaskan villages or 86 percent of all 
native communities were at risk because of climate change.
    In the case of Newtok, those effects were potentially life 
threatening. Dr. Bitz, is that a true statement?
    Dr. Bitz. Yes, I think the permafrost thaw is a factor 
there as well as rising sea level and higher storm surge.
    Senator Sanders. I'd like to ask Ms. McGuire and Mayor 
Brower, it sounds to me and maybe I'm wrong, I'm not an expert 
on this, but it sounds to me like climate change is an absolute 
threat to the way of life of native Alaskans. Senator McGuire?
    Ms. McGuire. Through the Chair, Senator Sanders.
    Senator Sanders. Pardon me, we're not that formal. You can 
talk to me.
    Ms. McGuire. Through the Chair, Senator Sanders, Alaskans 
are some of the first climate refugees. We're right there at 
the forefront, and at the state legislative level we're 
dealing, already, with the costs of moving these villages. So 
you're absolutely right.
    Senator Sanders. Alright. So I'm going to get back to the 
irony, I think, that the Senator--he's a victim to irony. He 
made a fortune on irony, right? [Laughter.]
    Senator Franken. A small fortune. [Laughter.]
    Senator Sanders. It would seem to me and what I'm hearing 
from--and you come from an extraordinary state. I've only been 
there a little, a few days, but it is just an incredibly 
beautiful state, and I'm sure you're all proud of the beauty of 
your state. But it would seem to me if one is concerned about 
preserving your way of life that one must be a leader in the 
fight against climate change. I understand the economic 
implications of it, but how can we be talking about producing 
more oil which causes climate change which will be devastating 
to the communities of native Alaskans. That I don't quite 
understand.
    Mayor Brower, do you want to help me out on that one 
briefly?
    Ms. Brower. I believe that this is a ten thousand year old 
question. We never question anything that comes to us. We live 
with what is coming before us.
    Senator Sanders. But this one----
    Ms. Brower. But, yes----
    Senator Sanders. But let me just ask you this. I don't have 
a whole lot of time. In all due respect, this is not a ten 
thousand year old question. Climate change has been 
significantly accelerated in recent years. The evidence is it's 
caused by human activity.
    Ms. Brower. It's because of the fossil fuels that's coming 
out, yes, due to climate change.
    Senator Sanders. Alright, but what about the point about 
you aren't or some of you at least, are in favor of more 
production of fossil fuel which is ultimately destroying the 
very communities that your people live in. That does not make a 
lot of sense to me, in all respect. What am I missing?
    Ms. Brower. Through the Chair. The ones that are being more 
impacted is my region because that is where the whole activity 
of oil, industry, resource, onshore and offshore. And we do 
have communities in our region that is going through a quite 
alarming rate of permafrost melting.
    Senator Sanders. And in some years from now may by 
underwater.
    Ms. Brower. And some years now the--some villages that 
already have been created were built on frozen lakes. So yes, 
it's a matter of technology today. If technology were to say 
that I shouldn't have had Point Lay built and that it was 
sinking at alarming rate then technology if we were to check, 
we would have found them a more safer place than it is.
    Senator Sanders. Thank you.
    My time is expired, Madam Chair, but I think your state, 
your beautiful state, is almost a canary in the coal mine here. 
And well, I said what I said. Thank you very much.
    The Chairman. Well, as you can see we can probably have 
extended discussion and debate, and I think it is an important 
part of what we are discussing today. I have taken the 
perspective and approach that economic development and 
opportunities for the people who live and work and raise their 
families there is not inconsistent with ensuring that we are 
good environmental stewards.
    I think, Mayor Brower, you note it will be the technologies 
that will allow us to adapt. And this is the question that I 
want to present, probably to you, Mayor Brower, or perhaps to 
either one of our legislators. And that is the issue of revenue 
sharing.
    Because it's been pointed out to several colleagues here 
that we face issues like erosion of the coastline. Because 
we're seeing sea ice further from the shore, allowing the waves 
to build up, we're seeing threats to our community.
    The statistics that you have cited, Senator Sanders, we 
commissioned this report to do an assessment about the 
vulnerability of our communities, not only our coastal 
communities but some of our river systems and the threats that 
are present. It's been identified that it's not just Newtok. 
There are other communities such as Kivalina and Shishmaref 
that will need to be relocated.
    I have been out to Newtok, and I have seen the efforts that 
they are making.
    So many in this room are very well aware, Kivalina's 
biggest priority right now is an evacuation route off of their 
barrier island. They need a new school, but is the state going 
to invest the money for a new school when the community itself 
is threatened?
    These are the things that we are weighing as a state right 
now, but the cost to do this, the cost to move Kivalina, a 
community of about 400 people, is somewhere between $100 and 
$120 million. How do you do that? How do you deal with the cost 
to build revetment in Unalakleet? How do you make sure that in 
Kotzebue when we've got the mayor of the North West Arctic 
Borough here, former Representative Joule, how do we ensure 
that their coastline, the erosion that they're seeing is not 
eroded to the point that it threatens that community? It does 
require resourcing.
    Senator Sanders. But----
    The Chairman. This is the discussion and I want to ask the 
question because it actually is a question. A question to Mayor 
Brower and to our legislators here in terms of the imperative 
for revenue sharing as a source, not only to allow for 
adaptation and mitigation funds but also to deal with the other 
side of it, the opportunity side which is how are we going to 
build out a deep water port? How are we going to ensure, again, 
that we have whether it's navigational aids or communication 
aids in an area where we currently lack them?
    There hasn't been much discussion about revenue sharing, 
and I think it's an important part of this discussion in this 
Committee, and then we'll have opportunity for further 
discussion from members.
    So, Mayor Brower and then either one of our legislators.
    Ms. Brower. Thank you, through the Chair. Revenue sharing 
is one that we truly support, and we want to commend Senator 
Murkowski in leading that forum. We believe that revenue 
sharing, as we all know, the State of Alaska has done its 
revenue sharing. But what we've not seen from the federal 
government is that issue. So we truly support revenue sharing 
because we believe in sharing of our resources.
    The Chairman. Ms. McGuire?
    Ms. McGuire. Thank you, Madam Chair.
    I just want to hold this up really quickly for Senator 
Hirono. We're going to make sure you guys get a golden patch 
basically with the North Star there from the Alaska Arctic 
Policy Commission for being here today.
    Yes, revenue sharing. I meant to include that in our short 
remarks that that's one of the areas we feel, with the $4 
billion in lease revenues the federal government has already 
taken in, that's one place, one pot of money. But another is 
that opportunity to take one third in revenue sharing as you 
know the Gulf States do.
    And just to touch back on Senator Sanders, I think what 
we're asking for is the opportunity to continue to adapt. And 
so ten thousand years, as the Mayor has said, of our people 
adapting. What we don't want to do is have a situation right 
now where we're still reliant on fossil fuels. We're still 
going to be developing those.
    Other countries will develop them if we don't and possibly 
more irresponsibly, so we're not going to supplant that. We're 
moving toward renewables. We're not there yet. It's a lot of 
money, a lot of technology that we don't have. So in the 
meantime, let's not hamstring the folks that live on the 
forefront of the very first effects of changing climate by not 
allowing them to have the resources to make their lives better. 
And part of that is an economy.
    The Chairman. Ms. McGuire, I thank you for that.
    Mr. Herron. Senator?
    The Chairman. Representative Herron?
    Mr. Herron. Excuse me. To the question of Senator Sanders 
about the irony of it is I represent Newtok. And I've been to 
Kivalina with the Chairwoman just recently. Newtok is not just 
about sea ice or lack of. It's not about storms. It's also 
about river erosion. It's also about permafrost melting. But 
when you talk about the irony, why should we drill for more, so 
we can use more fuel products. And that's what the other 
speakers have said. It's about having healthy, sustainable 
communities.
    And so there is no irony to a person that lives in Newtok. 
Kivalina, for example, that barrier reef took many years to 
build. Now the climate has changed its mind, and it's going to 
take a few years to remove that barrier. But back to Newtok, 
there is no irony there. We need to develop our own resources 
so that we can have a healthy, sustainable community in Western 
Alaska.
    The Chairman. My time is expired, and I know members have 
questions for a second round here.
    Senator McGuire, you raised the issue of renewables, and 
one of the things that I'm looking forward to introducing my 
colleagues to is what Alaska is doing as the Arctic state to 
really be the front line leader in developing out our renewable 
alternatives so that we don't have communities that are reliant 
on diesel. We are the innovators when it comes to the energy 
microgrids, and it's pretty exciting.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    It's clear to me that we need to be in the Arctic 
regardless of whether we're focused on more resource 
exploration. To me, it's an area that's critically important to 
the United States.
    But I do want to ask Admiral Papp, what do we know about 
oil on ice? You know, we had Commandant Zukunft testify before 
the Commerce Committee. I think it's been more than a year ago 
now because we were very concerned about tar sands oil in in 
the Pacific Northwest and the fact that we don't know how to 
clean up tar sands spills. He basically said, we don't have a 
very good plan for tar sand oil. So what do we know about oil 
on ice?
    Admiral Papp. There is not a lot of information, and I've 
discussed that with each one of the Nordic countries as I've 
gone there. Obviously because the Nordic areas had open water 
for thousands of years and they come close to the ice and 
they've done much more oil exploration within their portion of 
the Arctic.
    Even they say they don't have a lot of experience in terms 
of how we react to a spill in the Arctic ice. What we're 
hopeful is through our leadership on the Arctic Council to 
exercise that marine oil spill preparedness and response 
agreement. An agreement is as good as the paper that it sits 
on.
    What we need to do is start exercising that and bringing 
experts together and coming up with experimentation, 
identifying shortfalls in terms of response equipment. 
Inventorying what's available amongst the countries that 
surround the Arctic so that we can get a step ahead of what, 
inevitably, will happen. Someday there will be a spill of some 
sort whether it's from drilling or whether it's from a marine 
casualty. And I think we're behind the power curve in terms of 
being prepared for it. So we need to start moving forward.
    Senator Cantwell. Can you talk about the impacts of not 
being a signature to the Law of the Sea Treaty? Specifically 
I'm concerned right now about pirating of fish, everything from 
crab in the Bering Sea by the Russians to other losses in cod 
or pollock.
    Admiral Papp. I'm hard pressed to come up with how not 
signing, not being a signator to the Law of the Sea hurts us in 
terms of fisheries because everything is customary. 
International law is what is brought into the Law of the Sea 
agreement, and we comply with all that.
    Really the primary area that we are at a disadvantage is 
the Outer Continental Shelf, particularly the extended Outer 
Continental Shelf, and we will not be able to perfect a claim 
that's recognized by other countries until we accede to the Law 
of the Sea Treaty. So it's the bottom rights, etcetera.
    Senator Cantwell. I think the question is we don't have 
enforcement authority. I'm sure what happens now when we find 
violations.
    Admiral Papp. No, Ma'am.
    The fisheries that's in the water column is governed by 
your exclusive economic zone which we are all in agreement on. 
The extended Continental Shelf gives you rights for exploration 
on the bottom and in fact, even though we have these claims 
that are occurring there will still be international waters at 
the center of the Arctic. Even though there will be claims for 
the Continental Shelf, the waters themselves that are above the 
bottom remain international waters subject to any country 
around the world coming in and fishing.
    So one of the important things, one of the reasons we are 
committed to keeping communications open with the Russians is 
because there are very vital things like the Arctic Council and 
fisheries agreements that we need to continue to work with the 
Russians on so that we don't harm that particular resource.
    Senator Cantwell. We are talking about Arctic fish here and 
this is part of the issue of whose fish, whose resource. So the 
question is how much patrolling are we doing in that area? How 
are we defining this? So you don't see this as a challenge? You 
don't see----
    Admiral Papp. It's going to----
    Senator Cantwell. Current resource allocation and 
enforcement as an issue?
    Admiral Papp. It's going to be a challenge. We already have 
science that's telling us that species are moving north from 
all the countries. I had a chance to meet with some 
Greenlanders recently that are catching species around 
Greenland that they've never seen before, and we have science 
that shows us that other species are moving up through the 
Bering Strait into the Arctic.
    That's why we placed a moratorium on fishing within U.S. 
waters and have pretty good agreement with the other countries 
up there for a moratorium until science can show what the 
stocks are doing up there, and then we can do it based upon 
science.
    We're also working towards an agreement so that that hole 
up at the center of the Arctic that is international waters, we 
seek to have an agreement whether it's a regional seas program 
or otherwise, that would prevent other countries from coming up 
there and harvesting resources that we are not sure of because 
we don't have the science yet.
    Senator Cantwell. Okay, thank you. I see that my time is 
expired.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair.
    On that point, lobstermen in Maine, Admiral Papp, are now 
catching seahorses in their lobster traps which is astonishing 
in terms of species moving north.
    A couple of points, Madam Chair, that I think might be 
helpful.
    We've been talking about ice breakers. To me an ice breaker 
is a piece of infrastructure. It's like a highway, and on a 
back of the envelope calculation one new ice breaker is 
equivalent of about 100 miles of interstate highway. Putting 
that in perspective and the importance of these ice breakers, I 
think, is important in terms of our national expenditures on 
infrastructure. Of course, we're doing a pretty poor job on 
infrastructure generally, nationally, but we ought to be able 
to build the equivalent of 100 miles of interstate highway to 
provide access to this incredible new region.
    The way I think of it is it's as if we have discovered the 
Mediterranean Sea. It's an entirely new body of water that has 
been essentially locked up for most of human history with 
neighbors, and hopefully we're going to be able to develop and 
work in this new place peacefully rather than have to go 
through centuries of war which surrounded the development of 
the Mediterranean Sea because we have the international 
organizations that we never had before.
    I think one of the important data points on this is this 
chart of the Arctic and the principal sea route now is right 
along the Russian coast. [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    It's another reason that this has to be done. This route is 
useable in many cases today. This is the summer ice. The polar 
route will be many years. The Northwest Passage will come 
sooner than the polar route, but the principal route now is 
right along the Russian coast and that's something that we need 
to take into account. It's another reason that these 
international relationships have to be developed in a 
systematic and deliberate way that I think make this so 
important.
    One final point and then I wanted to ask Mr. Arnold a 
question.
    I would recommend to the Committee and to the witnesses and 
to our friends who are here today an animation prepared by 
NOAA, and you can find it if you go to You Tube and type in 
NOAA Arctic Ice Animation. You'll see the aged iced from 1987 
to 2014, and what you see over time is it's contracting. It's 
very dramatic. It makes the point much more dramatically than 
any of us could make in a speech. I recommend that to you. I 
think it's so important.
    It's another connection between Maine and the Arctic. We 
have two companies in Maine, Ocean Renewable Power and Pika 
Industries. Ocean Renewable Power actually has an experimental 
tidal facility in Alaska. Pika is doing microgrid work that I 
think would be very interesting because I'm sure, Madam Mayor, 
your energy, your electricity costs are probably above 70 cents 
a kilowatt hour. It's all imported diesel, and it's not very 
clean. So renewables, it seems to me, is a huge opportunity for 
you.
    Mr. Arnold, you worked on port development around the 
world. You've been a navigator. Talk to me about the 
opportunities that are created by transit through the Arctic 
and when do you see that coming to fruition and what's the 
potential?
    Mr. Arnold. Sure. So one thing to point out is that moving 
freight by water is the greenest form of transportation when it 
comes to carbon emissions and on a freight per ton mile. It's 
important to have that consideration where we're talking about 
trade and we're talking about the sea lanes over the Arctic.
    Another element to that, Senator Franken had pointed out, 
was that a reduction in transit time is also a greener aspect 
to this in that if you're reducing the amount of distance from 
say, China or Japan or Korea and the United States eastern 
seaboard by anywhere from 20 to 50 percent, because that's the 
reduction that you would experience in the case of using either 
the northern sea route or northwestern passage then you're 
reducing the equivalent amount of fuel consumption to move that 
same freight which is going to move regardless of whether or 
not that sea route is open but your fuel consumption and 
emissions related will be 20 to 50 percent less as well.
    So in regards to accessibility there are already more than 
70 ships in 2013 that transited the northern sea route and that 
was with ice breaker assistance from Russia.
    Senator King. They charge more.
    Mr. Arnold. They do charge for that. They're very cognizant 
of the opportunity that exists with charging every other 
country and every other ship owner for that. And there's a cost 
to it. So naturally they would charge for that.
    Right now everyone that we're working with, Eimskip, the 
CEO of Eimskip is working very closely with the Chinese 
shipping company, Cosco. And we're really looking at, kind of, 
a gradual opening of the northern sea route for the summer 
months over the next five to ten years.
    This is a very long term discussion, but it's the reason 
the investments in the ice breakers are happening now is 
because the moment you have that you're extending the fringe or 
the shoulder season for when you can transit that passage.
    Senator King. Thank you. Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    We've been talking Arctic for about two hours and 15 
minutes, and I just appreciate the indulgence not only of each 
of the panelists, but those who have come here to listen and to 
the members. Given that there are other things that are 
happening, the attention that has been given to this issue this 
morning is somewhat representative of the growing interest that 
so many have in the Arctic whether you are a resident of the 
Arctic or a wannabe. And we want to make sure that there are 
more wannabes.
    I want to recognize before we conclude we have several 
other legislators that have joined us. I see Representative 
Millett from Anchorage in the back there. We had Senator 
Castello here earlier. We have former State Senator and 
President of our State Senate, Drue Pearce, in the back. Mayor 
Joule, who is the Mayor of the Northwest Arctic Borough, was 
also with us. Again, great representation out there.
    I do want to make just a correction here because Senator 
King you noted that in so many parts of Alaska the energy costs 
are extraordinarily high. One of the amazing benefits that the 
community of Barrow has seen and several of the other 
communities in the North Slope Borough is that when the oil 
pipeline came on part of the agreement was that the communities 
would have natural gas. And so Barrow is blessed to have 
abundant sources of affordable natural gas.
    Mayor, maybe you can tell me within your Borough, how many 
of your villages have natural gas accessible to them? So how 
many diesel communities do you have versus how many that enjoy 
the benefits that come with affordable natural gas?
    Ms. Brower. Through the Chair, Barrow is the first village 
through the transfer, the Barrow Gas Field Transfer Act, and 
then Nuiqsut which is one closest to Prudhoe Bay in formation 
of the Alpine, one of the agreements was that we would have a 
gas transmission line to that village.
    All other villages are either through diesel, propane or 
gas and----
    The Chairman. And Mayor, can you tell the Committee what 
folks are paying for their diesel or their gas right now in the 
North Slope Borough outside of Barrow and Nuiqsut?
    Ms. Brower. Propane about this high can cost you $800. A 
drum can cost you from $500-$800, and in Anaktuvuk Pass the gas 
to run either a snow machine or our services which we provide 
is as high as $10 a gallon for gas. I'm just giving you more 
recent examples, but the natural gas is the answer in natural 
heat and the emission out of the natural gas is probably less 
to any type of other carbons that are out there. So we do have 
it, and it's just a matter of cost of trying to bring it to the 
communities.
    The Transfer Act does allow for the natural gas to be 
transmitted to Atqasuk and Wainwright, but it's so cost 
prohibitive that we've not been able to do the natural gas 
transmission to those two villages.
    The Chairman. Thank you, Mayor, for the explanation.
    I had the opportunity a couple weeks ago----
    Ms. Brower. Oh, if I may?
    The Chairman. Go ahead.
    Ms. Brower. One of the villages that is the most impacted 
that is not going to be able to ever see and enjoy the natural 
gas transmission is the village of Kaktovik which is right 
adjacent to the ANWR. And that is something that we have to 
work with and very hard in how we're to do it. If they can 
build Point Thomson which is adjacent to ANWR, we should be 
able to build a transmission of gas, natural gas, to that 
village, but today that's been designated a wilderness, not 
even a pipe can go through that.
    Senator King. You planted that question, Madam Chair.
    The Chairman. I didn't plant that question. [Laughter.]
    But I will tell you that I did see a picture of Kaktovik 
last week where literally the buildings were buried with snow 
from a blizzard, and the article that described the storm that 
Kaktovik had faced said that the dumpsters in the community 
were flying about the community. It was that tough out there.
    It's hard when the only way to keep warm and keep the 
lights on is expensive diesel or propane or oil, so I 
appreciate you mentioning that.
    I was going to conclude my comments by saying that the 
Mayor hosted me in Barrow a few weekends ago. It was actually 
Valentine's Day, and it was a gathering called Kivgiq which is 
the dance festival that is held about every three years or so 
where people from all of the North Slope villages come together 
for days of dance. We were there for the final day, and the 
grand finale was celebrated at about 2 a.m. with the most 
amazing drumming and dancing, a beautiful expression of the 
culture of beautiful people, truly the heart of the Arctic. And 
I was honored to be included as part of that.
    But it's a constant reminder to me that as we face these 
challenges, as we face these opportunities in the Arctic, we 
not ever forget the people of the Arctic. So, thank you for 
your representation.
    Thank you to my colleagues for being so attentive on these 
issues that, again, we're not talking about Alaskan earmarks 
when we're talking about an ice breaker. We're talking about 
national assets. And I appreciate the help of my colleagues.
    And with that, we stand adjourned.
    [Whereupon, at 12:21 p.m., the hearing was adjourned.]





                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
